Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




THE MEDICARE CONTRACTOR’S
 PAYMENTS IN JURISDICTION 2
FOR FULL VIALS OF HERCEPTIN
   WERE OFTEN INCORRECT




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General

                                                      November 2012
                                                      A-09-12-02003
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Herceptin, also known as trastuzumab, is a Medicare-covered drug used to treat breast cancer
that has spread to other parts of the body. Herceptin comes in a multiuse vial of 440 milligrams.
A multiuse vial contains more than one dose of medication and is labeled as such by the
manufacturer. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days. An
entire multiuse vial of 440 milligrams of reconstituted Herceptin when administered would be
reported as 44 units for Medicare billing.

For multiuse vials, Medicare pays only for the amount administered to a beneficiary and does not
pay for any discarded drug. Therefore, a payment for an entire multiuse vial is likely to be
incorrect. This audit is part of a nationwide review of the drug Herceptin. The pilot review
found that the Medicare contractor’s payments for full vials of Herceptin were often incorrect.

During our audit period (January 1, 2008, through December 31, 2010), Noridian Administrative
Services, LLC (Noridian), was the Medicare contractor for Jurisdiction 2, which comprised four
States. For Jurisdiction 2, Noridian processed 7,948 line items for Herceptin totaling
approximately $13.1 million. Of these 7,948 line items, 714 totaling approximately $1.8 million
had unit counts in multiples of 44 (44, 88, 132, etc.) that represent billings equivalent to entire
multiuse vials. In this audit, we did not review entire claims; rather, we reviewed the specific
line items within the claims that met these criteria.

OBJECTIVE

Our objective was to determine whether Medicare payments that Noridian made to providers in
Jurisdiction 2 for full vials of Herceptin were correct.

SUMMARY OF FINDINGS

Most Medicare payments that Noridian made to providers in Jurisdiction 2 for full vials of
Herceptin were incorrect. Specifically, of the 714 selected line items, 487 (68 percent) were
incorrect and included overpayments totaling $567,008, or 31 percent of total dollars reviewed.
These providers had not identified or refunded these overpayments by the beginning of our audit.
One provider refunded overpayments on 93 line items totaling $86,867 before our fieldwork.
The 134 remaining line items were correct.

On each of the 487 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vials, each containing 440 milligrams of Herceptin, rather than reporting the
units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. Noridian made these incorrect payments because neither the Fiscal



                                                 i
Intermediary Standard System nor the Common Working File had sufficient edits in place during
our audit period to prevent or detect the overpayments.

RECOMMENDATIONS

We recommend that Noridian:

   •   recover the $567,008 in identified overpayments,

   •   implement or update system edits that identify for review multiuse-vial drugs that are
       billed with units of service equivalent to the dosage of an entire vial(s), and

   •   use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
provided information on actions that it had taken to address the recommendations. Noridian’s
comments are included in their entirety as the Appendix.




                                                  ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION ...................................................................................................................... 1

      BACKGROUND .................................................................................................................. 1
        Medicare Contractors ...................................................................................................... 1
        Claims for Drugs ............................................................................................................. 1
        Herceptin .........................................................................................................................2
        Noridian Administrative Services, LLC ......................................................................... 2

      OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................ 2
        Objective ......................................................................................................................... 2
        Scope ............................................................................................................................... 2
        Methodology ...................................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................. 4

      FEDERAL REQUIREMENTS .................................................................................. 4

      OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED ....................... 4

      CAUSES OF INCORRECT MEDICARE PAYMENTS ..................................................... 5

      RECOMMENDATIONS ...................................................................................................... 5

      NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS ................................. 5

APPENDIX

      NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                      iii
                                                INTRODUCTION

BACKGROUND

Herceptin 1 is a Medicare-covered drug used to treat breast cancer that has spread to other parts of
the body. Herceptin comes in a multiuse vial of 440 milligrams. A multiuse vial contains more
than one dose of medication and is labeled as such by the manufacturer. However, for multiuse
vials, Medicare pays only for the amount administered to a beneficiary and does not pay for any
discarded amounts. This audit is part of a nationwide review of the drug Herceptin. The pilot
review 2 found that the Medicare contractor’s payments for full vials of Herceptin were often
incorrect.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for outpatient services. 3 The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse. Federal guidance provides that Medicare contractors must maintain adequate
internal controls over automatic data processing systems to prevent increased program costs and
erroneous or delayed payments. To process providers’ claims for outpatient services, the
Medicare contractors use the Fiscal Intermediary Standard System and CMS’s Common
Working File (CWF). The CWF can detect certain improper payments during prepayment
validation.

Claims for Drugs

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains line items that detail each provided service. Providers should
use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the drug
administered and report units of service in multiples of the units shown in the HCPCS narrative
description. 4 Multiuse vials are not subject to payment for discarded amounts of the drug.


1
    Herceptin is Genentech’s registered trademark for the drug trastuzumab.
2
    Report number A-05-10-00091, issued July 10, 2012.
3
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. In this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is
applicable.
4
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                           1
Multiuse vials are typically used for more than one date of service and can be stored for up to
28 days. Therefore, a payment for an entire multiuse vial is likely to be incorrect.

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to benzyl alcohol, sterile water without a preservative should be used
and any unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with
a narrative description of “injection, trastuzumab, 10 mg.” An entire multiuse vial of
440 milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.

Noridian Administrative Services, LLC

During our audit period (January 1, 2008, through December 31, 2010), Noridian Administrative
Services, LLC (Noridian), was the Medicare contractor for Jurisdiction 2, which comprised four
States: Alaska, Idaho, Oregon, and Washington. 5 For Jurisdiction 2, Noridian processed 7,948
line items for Herceptin.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare payments that Noridian made to providers in
Jurisdiction 2 for full vials of Herceptin were correct.

Scope

During our audit period, Noridian processed 7,948 outpatient Part B service line items of
Herceptin totaling approximately $13.1 million. Of these 7,948 line items, 714 items totaling
approximately $1.8 million had unit counts in multiples of 44 (44, 88, 132, etc.) that represent
billings equivalent to entire multiuse vials. In this audit, we did not review entire claims; rather,
we reviewed the specific line items within the claims that met these criteria.

We limited our review of Noridian’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable


5
 Because there was no MAC for Jurisdiction 2 during our audit period, Noridian processed the Jurisdiction 2
workload under its legacy Medicare contract. On August 22, 2011, CMS awarded Noridian the MAC contract for
Jurisdiction F, which includes the four States. The contract became effective on February 1, 2012.



                                                      2
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

Our fieldwork was conducted from November 2011 to July 2012 and included contacting
Noridian in Fargo, North Dakota, and the 27 providers in Jurisdiction 2 that received the selected
Medicare payments.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify outpatient line items in which
       payments were made for HCPCS code J9355 (Herceptin);

   •   identified the 714 line items in our scope that Noridian paid to 27 providers;

   •   contacted the 27 providers that received Medicare payments associated with the selected
       line items to determine whether the information conveyed in the selected line items was
       correct and, if not, why the information was incorrect;

   •   reviewed documentation that the providers furnished to verify whether each selected line
       item was billed correctly; specifically, we reviewed documentation to support:

           o the medical condition of the beneficiary in determining the necessity of the
             medication,

           o a physician’s orders for medication,

           o that the medication was administered, and

           o the type of solution used to reconstitute the Herceptin (BWFI containing
             1.1 percent benzyl alcohol or sterile water);

   •   coordinated the calculation of overpayments with Noridian; and

   •   discussed the results of our review with Noridian on July 23, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                               FINDINGS AND RECOMMENDATIONS

Most Medicare payments that Noridian made to providers in Jurisdiction 2 for full vials of
Herceptin were incorrect. Specifically, of the 714 selected line items, 487 (68 percent) were
incorrect and included overpayments totaling $567,008, or 31 percent of total dollars reviewed.
These providers had not identified or refunded these overpayments by the beginning of our audit.
One provider refunded overpayments on 93 line items totaling $86,867 before our fieldwork.
The 134 remaining line items were correct.

On each of the 487 incorrect line items, the providers reported the units of service for the entire
content of 1 or more vials, each containing 440 milligrams of Herceptin, rather than reporting the
units of service for the amount actually administered. The providers attributed the incorrect
payments to clerical errors and to billing systems that could not prevent or detect the incorrect
billing of units of service. Noridian made these incorrect payments because neither the Fiscal
Intermediary Standard System nor the CWF had sufficient edits in place during our audit period
to prevent or detect the overpayments.

FEDERAL REQUIREMENTS

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 23,
section 20.3, states: “… providers must use HCPCS codes … for most outpatient services.”
According to chapter 17, section 70, of the Manual, when a provider is billing for a drug
“[w]here HCPCS is required, units are entered in multiples of the units shown in the HCPCS
narrative description. For example, if the description for the code is 50 mg, and 200 mg are
provided, units are shown as 4 ….”

Chapter 17, section 40, of the Manual also states: “Multi-use vials are not subject to payment for
discarded amounts of drug ….” Finally, chapter 1, section 80.3.2.2, of the Manual states: “In
order to be processed correctly and promptly, a bill must be completed accurately.”

OVERPAYMENTS OCCURRED ON MOST LINE ITEMS REVIEWED

Providers reported incorrect units of service on 487 (68 percent) of the 714 line items reviewed,
resulting in overpayments totaling $567,008 (31 percent) of the approximately $1.8 million total
dollars reviewed. Providers billed Medicare for the entire vial containing 440 milligrams of
Herceptin, rather than billing only for the amount actually administered.

For example, one provider administered 150 milligrams of Herceptin to a patient and billed for
44 units of service (440 milligrams). Based on the HCPCS description of Herceptin (injection,
trastuzumab, 10 milligrams), the number of units to be reported for 150 milligrams is 15. 6 This
error occurred on 30 separate occasions for 1 patient; as a result, Noridian paid the provider
$64,714 when it should have paid $22,062, an overpayment of $42,652.


6
  If the drug dose used in the care of a patient is not a multiple of the HCPCS code dosage descriptor, the provider
rounds to the next highest unit based on the HCPCS long descriptor to report the dose.



                                                          4
CAUSES OF INCORRECT MEDICARE PAYMENTS

The providers attributed the incorrect payments to clerical errors and to billing systems that
could not prevent or detect the incorrect billing of units of service. Noridian made these
incorrect payments because neither the Fiscal Intermediary Standard System nor the CWF had
sufficient edits in place to prevent or detect the overpayments. In effect, CMS relied on
beneficiaries to review their Medicare Summary Notice 7 and disclose any overpayments.

RECOMMENDATIONS

We recommend that Noridian:

    •    recover the $567,008 in identified overpayments,

    •    implement or update system edits that identify for review multiuse-vial drugs that are
         billed with units of service equivalent to the dosage of an entire vial(s), and

    •    use the results of this audit in its provider education activities.

NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS

In written comments on our draft report, Noridian concurred with our recommendations and
provided information on actions that it had taken to address the recommendations. Noridian’s
comments are included in their entirety as the Appendix.




7
  The Medicare contractor sends a Medicare Summary Notice—an explanation of benefits—to the beneficiary after
the provider files a claim for services. The notice explains the services billed, the approved amount, the Medicare
payment, and the amount due from the beneficiary.



                                                         5
APPENDIX
                                                                                                                Page 10f2


APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS 



   ~,
  NORIDIAN®
  Administrative Services


          October 22,2012

          Lori A. Ahlstrand
          Regional Inspector General for Audit Services 

          Office of Inspector General 

          Region IX
          90 - i h Street, Suite 3-650 

          San Francisco, CA 94103 


          RE: Report Number A-09-12-02003

          Dear Ms. Ahlstrand:

          Thank you for the opportunity to respond to the draft report of the U.S. Department of Health &
          Human Services, Office ofInspector General (OIG) dated September 27,2012, entitled, The
          Medicare Contractor's Payments in Jurisdiction 2jor Full Vials ojHerceptin Were Often
          Incorrect. We concur with the recommendations made by the OIG. NAS has provided our
          responses to the recommendations within the contents of this letter. The course of action that
          NAS has planned will be an ongoing effort due to the extent of activities planned and the time
          associated with the research, development, testing, and implementation of certain initiatives.

          NAS researched the claim information and details provided by the OIG and have identified
          several courses of action NAS will perform to assist in reducing future overpayments. The
          CPTIHCPC code, J9355 identified in this audit, is now included on the non-published Medical
          Unlikely Edits (MUE) listing and has a unit of service limit as of April 1, 2011. MUEs are edits
          in the standard Part A system, PISS, and should assist in minimizing unit of service overpayments
          in the future.

          It is important to note that future overpayments may still be possible because Medicare
          contractors are not funded to perform 100% complex review of claims. Without a comparison of
          medical records and coding on 100% of claims billed, there will always be the potential for
          overpayments (and underpayments) resulting from billing incorrect procedure codes, units of
          service, and other claims payment indicators. NAS will do our due diligence to avoid
          overpayments within the scope of our contracts, authorization, and experience. An important tool
          or step in this process that NAS has considered is to make referrals to the Program Safeguard
          Contractor (PSC), Recovery Audit Contractors (RAC), and CMS as a method of business
          collaboration.

          OIG RECOMMENDATIONS:

               • 	 Recover the $567,008 in identified overpayments
                         NAS Response: NAS concurs with the recommendation that all overpayments
                         identified are to be collected. As stated in the draft report, one provider refunded
                         93 line items totaling $86,867 before fieldwork began. There were 487 line item
                         overpayments remaining to be collected.
                                                                                                       Page 2 of2




                On each of the 487 incorrect line items, the providers reported the units of
                service for the entire contents of one or more vials, each containing 440
                milligrams of Herceptin, rather than reporting the units of service for the amount
                actually administered.

                On Thursday, November 8, 2011, NAS received the detailed claims
                listing/findings from the OIG. NAS collected the $567,008 for 487 line items as
                ofJune 27, 2012.

    •   Implement or update system edits that identify for review multiuse-vial drugs that
        are billed with units of service equivalent to the dosage of an entire vial(s).
                NAS Response: NAS concurs with this recommendation. A national Medically
                Unlikely Edit (MUE) for Herceptin was implemented by CMS on April 1, 2011.
                NAS continues to work with CMS, PISS, and the MUE Advisory Committee to
                refine MUE unit of service limits that may, in some cases, be set too high.

    • 	 Use the results of this audit in its provider education activities
               NAS Response: NAS completed the following provider education activities:

                     • 	 A provider education article was distributed via the listserv and posted to
                         the NAS Medicare Website on June 28, 2012, to educate providers on the
                         proper way to bill units ofHerceptin. This article was also published in
                         NAS' Medicare A News bulletin on August 22,2012 which is also
                         available on NAS' Medicare A Website.
                     • 	 The provider education article was revised to clarify that a multiuse vial
                         can be used for more than one patient when reconstituted and stored
                         properly. The article was published on the NAS Medicare Website on
                         October 18,2012.

Please advise if additional information or further clarification is needed on any of our response.
Please contact Paul O'Donnell, Medicare Operations Vice President, at (701) 277-2401, or
through e-mail atPau1.0Donnell@noridian.com.


Sincerely,

/s/ PaulO 'Donnell

Paul O'Donnell
Vice President
Noridian Administrative Services, LLC
